4
I

C@OCKLE

2311 Douglas Street Le ga l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-514

NIKKO A. JENKINS,
Petitioner,

v.
STATE OF NEBRASKA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DOUGLAS J. PETERSON
Attorney General of Nebraska

JAMES D. SMITH
Solicitor General
Counsel of Record
2115 State Capitol
Lincoln, Nebraska 68509-8920
jamessmith@nebraska.gov
(402) 471-2682
Counsel for Respondent

Subscribed and sworn to before me this 10th day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cae i EC Clit Qudiawh, hole

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38920
SERVICE LIST

David D. Cole
Counsel of Record
American Civil Liberties Union Foundation
915 15th Street, NW
Washington, DC 20005
(212) 549-2500
deole@aclu.org
Counsel for Petitioner Nikko A. Jenkins
